U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 INTERNATIONAL TRADE
                      ADMINISTRATION

       USEACs Are Meeting Client Needs, but
      Better Management Oversight Is Needed


    Final Inspection Report No. IPE-16728/September 2004




                             PUBLIC
                             RELEASE



           Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                       Final Report IPE-16728

Office of Inspector General                                                                                               September 2004




                                                   TABLE OF CONTENTS



EXECUTIVE SUMMARY ..............................................................................................................i


BACKGROUND .............................................................................................................................1


OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................................4


OBSERVATIONS AND CONCLUSIONS ....................................................................................5


I.	 Weaknesses Identified Demonstrate That USEAC Management Oversight Needs to Be

    Improved ....................................................................................................................................5

     A.	 Some export successes either were not documented as required by CS guidelines or did 

         not occur ...........................................................................................................................5

     B.	 Assistance to new-to-export clients should be tracked ....................................................9

     C.	 Management oversight of domestic operations should be strengthened .......................12


II. ITA Is Not in Compliance with OMB Circular A-25 Requirements .......................................15


III. Clients Value the USEACs and Offer Suggestions to Enhance Services ................................18

      A.	 Clients are pleased with USEAC trade assistance .........................................................18

      B.	 Clients offer suggestions for improving USEAC services ............................................19


IV. USEACs Have Positive, Mutually Beneficial Relationships with Trade Partners ..................21


SUMMARY OF RECOMMENDATIONS ...................................................................................26


APPENDIX A: List of Acronyms.................................................................................................27


APPENDIX B: National Field Support Team ............................................................................. 28


APPENDIX C: Agency Response to the Draft Report.................................................................29

U.S. Department of Commerce                                                            Final Report IPE-16728

Office of Inspector General                                                                    September 2004


                                       EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major role in
leading the federal government’s efforts to increase U.S. exports. ITA’s U.S. Commercial
Service (CS), 1 as the Department’s key export promotion agency, works closely with the U.S.
business community and federal, state, and local trade partners to promote export awareness and
U.S. sales abroad.

Currently, the Commercial Service, through its Office of Domestic Operations (ODO), operates
106 U.S. Export Assistance Centers (USEACs), grouped geographically into 12 networks. The
key objective of the USEACs is to enhance and expand federal export promotion and trade
finance services through greater cooperation and coordination between federal and nonfederal
trade-related partners. 2

During 2003 and 2004, the Office of Inspector General inspected the operations of 3 of the 12
USEAC networks (Chicago, Pacific Northwest, and Philadelphia) to evaluate the management,
program operations, and financial and administrative practices of each network. These 3
networks represent 28 individual USEAC offices. This report presents our crosscutting
observations and recommendations as well as a discussion of the actions ITA and Commercial
Service have taken or plan to take to implement recommendations presented in the individual
inspection reports. 3

Overall, we found that the USEAC networks are operating well, doing a good job of providing
export assistance to U.S. companies as well as collaborating with trade partners, and have fairly
sound financial and administrative operations. However, we did identify a few crosscutting
issues that warrant ITA’s and the Commercial Service’s attention, including (1) the need to
improve headquarters oversight of the domestic field operations; (2) a lack of compliance with
CS policy and procedures—in particular export success reporting guidelines; and (3)
noncompliance with the statutory and regulatory requirements to charge full-cost recovery fees
for products and services. Our specific observations are as follows:

Weaknesses Identified Demonstrate That USEAC Management Oversight Needs to Be
Improved. Through our individual inspections, we discovered several deficiencies to comply
with federal regulations and internal CS policy and procedures by both the USEACs and ODO.
Most significant ly, we found that failure to comply with the CS guidelines on the reporting of
export successes—the organization’s key performance measure—resulted in the overstatement
of performance data for each network. Specifically, Chicago’s export value of $42.1 million

        1
           U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).
        2
           The Export Enhancement Act of 1992 directed the Commerce Department to take the lead in setting up
“one-stop shops” to assist U.S. exporters. The one-stop shops, known as USEACs, are intended to integrate the
representatives and assistance of the three principal federal agencies providing export promotion services:
Commercial Service, Export-Import Bank, and Small Business Administration. The first four USEACs were
established in January 1994, as pilot sites in Baltimore, Chicago, Long Beach, and Miami.
         3
           Chicago USEAC Network is Generally Operating Well But Needs to Improve Its Export Success
Reporting (IPE-16136); Pacific Northwest USEAC Network Generally Operates Well, but Export Success Reports
Need More Management Scrutiny (IPE-16507); and Philadelphia USEAC Network Provides Good Service to
Clients, but Oversight and Export Success Reporting Need to be Improved (IPE-16402).


                                                       i
U.S. Department of Commerce                                                            Final Report IPE-16728
Office of Inspector General                                                                    September 2004

was overstated by $4.3 million (10 percent); Pacific Northwest’s export value of $263 million
was overstated by $156 million (59 percent); and Philadelphia’s export value of $145.1 million
was overstated by $14.5 million (10 percent). 4 We also noted that, despite a CS strategic goal to
expand the number of U.S. firms that export, the CS is not accurately tracking the assistance it is
providing firms who are new to exporting. In addition, we discovered operational, financial, and
administrative weaknesses unique to each network, which, when coupled with the findings
together common to all three, suggest that ODO needs to improve its management oversight of
the domestic field operations (see page 5).

ITA Is Not in Compliance with OMB Circular A-25 Requirements. Office of Management
and Budget Circular A-25 establishes federal policy regarding fees for U.S. government services
and for sale or use of federal goods or resources—including those of ITA—that convey special
benefits to recipients beyond those accruing to the general public. The stated objective of this
policy is that fees be set to allow full-cost recovery for benefits provided to specific recipients
beyond those accruing to the general public. Although ITA currently charges fees for some
products and services, we determined that ITA is not in compliance with Circular A-25’s full-
cost recovery requirements (see page 15).

Clients Value the USEACs and Offer Suggestions to Enhance Services. Across the three
USEAC networks, we contacted over 200 clients to learn of their interactions with the USEACs.
We learned that the level of assistance and products provided by the USEACs met or exceeded
the expectations of most clients. The majority of them described USEAC staff as responsive,
innovative, knowledgeable of overseas markets, and well connected to trade partners and
government contacts abroad. A number of clients suggested ways in which the USEACs could
enhance their visibility and services. In particular, these clients suggested the use of radio
announcements and industry association newsletters as a means to promote the USEACs. Other
clients suggested that the USEACs could offer more specialized trade assistance and market
information (see page 18).

USEACs Have Positive, Mutually Bene ficial Relationships with Trade Partners. We found
that each of the USEAC networks has strong, mutually beneficial relationships with a diverse
mix of trade partners at the federal, state, and local levels. In some of the export assistance
centers, Commercial Service is collocated with one or more trade partners, such as the Small
Business Administration (SBA), Export-Import Bank, state trade agencies, and universities.
These collaborative relationships better enable the USEACs to provide U.S. companies with
“one-stop shopping” for their export counseling, market research, and trade financing needs
(see page 21).

On page 26, we offer recommendations to address our concerns.




        4
          For the Chicago network, we reviewed the export success records approved (273) from October 1, 2002 to
July 9, 2003, and for the Pacific Northwest and Philadelphia networks, we examined a random sample of
approximately 20 percent of the export success records approved during the 2003 fiscal year—761 and 489,
respectively.


                                                       ii
U.S. Department of Commerce                                                    Final Report IPE-16728

Office of Inspector General                                                            September 2004





ITA concurred with all of our recommendations. The Chief Financial Officer and Director of
Administration’s response to our draft report discusses what specific measures the bureau has
taken, or plans to take, to comply with the recommendations in this report. In order to more
effectively monitor export success reporting worldwide, ITA has appointed an Export Success
Quality Control Officer and is currently developing a sampling methodology for an in-depth
quality review of export successes from Commercial Service offices worldwide. ITA is also
working to add a field to the Client Management System in order to identify new-to-export
clients and track associated client counseling sessions. To more effectively monitor USEAC
activities and compliance with policies, procedures, and regulations, ITA reports tha t significant
structural improvements have been made to the ODO headquarters reporting structure to (1) fill
critical staffing gaps, (2) improve management oversight and accountability, and (3) improve
internal customer service.

ITA reported that it is also taking steps to comply with OMB Circular A-25 by acquiring a new
accounting system that should be implemented in fiscal year 2006 and by developing product-
pricing templates to capture the full direct and indirect costs for its products. As an attachme nt
to its response to our draft report, ITA provided an OMB Circular A-25 Conformance Plan (see
Appendix C, page 38). ITA noted that it is prepared to charge sufficient fees to obtain full cost
recovery and that all product prices will increase based on ITA’s methodology of including
salary costs and overhead charges that were previously excluded from product-pricing
computations. ITA also reported that it has included a 50 percent product discount on products
for its most vulnerable or smallest companies, if price tests indicate that such discounts are
necessary for CS and ITA to continue to service these companies. ITA did not agree with the
statement in our draft report that full pricing efforts are complicated by a “mind-set within ITA
against charging fees for government services” intended to help small and medium-sized
companies. It stated that the Commercial Service has been receptive to substantial price
increases over the last few years and training on pricing and fee-setting will be provided to staff.

Finally, although ITA noted that the Small Business Administration has committed to fully fund
collocation in the USEACs through FY 2005, the bureau will continue to monitor the situation
and develop contingency lease plans at the appropriate time if there is an indication that SBA
might depart the USEACs. In addition, realizing the importance of continuing to provide trade
finance assistance to clients, ITA will include segments on trade finance assistance in training
programs provided to trade specialists. We discuss ITA’s response to our findings and
recommendations in greater detail following each section in this report.




                                                 iii
U.S. Department of Commerce                                                            Final Report IPE-16728

Office of Inspector General                                                                    September 2004


                                           BACKGROUND 


The U.S. Commercial Service (CS)—founded in 1980 as an agency of the International Trade
Administration (ITA)—promotes the export of U.S. goods and services, particularly by small
and medium-sized businesses, and seeks to protect U.S. business interests abroad. Through its
Office of Domestic Operations (ODO), the Commercial Service operates 106 U.S. export
assistance centers (USEACs) grouped into 12 networks across the nation.

The Export Enhancement Act of 1992 called for the creation of USEACs to bring together in one
location the services of all federal trade-related agencies, and thereby give U.S. firms one-stop
access to the full range of federally sponsored export promotion and trade finance programs. In
creating the USEACs, Commercial Service designed a “hub and spoke” system: a USEAC, with
collocated federal trade partners, serves as the “hub” office supporting the activities of several
“spoke” or satellite offices (also called USEACs) within a designated geographic area.

From June 2003 through March 2004, we conducted inspections of 3 of the 12 US EAC
networks: Chicago, Pacific Northwest, and Philadelphia. 5 Each network has a diverse portfolio
of clients to whom trade specialists provide customized business solutions and one-on-one
counseling services to, for example, help clients determine their export readiness, identify
potential export markets, and develop an overall international business strategy and marketing
plan. USEAC clients are identified at trade shows, meetings, and seminars as well as through
referrals from trade partners. Individual centers work with a varied group of trade partners at the
federal, state, and local levels to deliver comprehensive export assistance services and reduce
duplication of efforts. Trade specialists participate in export promotion initiatives with their
trade partners, and promote and sell CS products and services.

Chicago USEAC Network
                                                                  Figure 1: Chicago USEAC Network
Commercial Service opened the Chicago USEAC in
1994. One of the first one-stop shops to be established,
the USEAC collocated CS representatives with staff from
the Export-Import Bank (Ex-Im Bank) and Small
Business Administration (SBA).
                                                                     Minneapolis
The Chicago USEAC is the hub office for six satellite                                            Milwaukee
locations in Libertyville, Peoria, and Rockford, Illinois;                                        Libertyville
                                                                                   Rockford
Indianapolis, Ind iana; Milwaukee, Wisconsin; and                                                 Chicago
Minneapolis, Minnesota (see figure 1). Together they                                    Peoria
                                                                                                        Indianapolis
cover those four states and North Dakota.

At the time of our review, the Chicago network had a
staff of 33: 25 from Commercial Service, 5 from Ex-Im

        5
           Chicago USEAC Network is Generally Operating Well But Needs to Improve Its Export Success
Reporting (IPE-16136); Pacific Northwest USEAC Network Generally Operates Well, but Export Success Reports
Need More Management Scrutiny (IPE-16507); and Philadelphia USEAC Network Provides Good Service to
Clients, but Oversight and Export Success Reporting Need to be Improved (IPE-16402).


                                                     1

U.S. Department of Commerce                                                             Final Report IPE-16728
Office of Inspector General                                                                     September 2004

Bank, 2 from SBA, and one from the Global Trade & Technology Network. 6 In FY 2003, the
Chicago USEAC Network operated with a budget of $2.5 million; counseled 2,748 businesses;
expanded its client base by 892; and collected $89,745 in fees from clients for products and
services.


Pacific Northwest USEAC Network

To optimize regional and industry similarities, Commercial Service combined the Silicon Valley
and Seattle USEAC networks in July 2003, forming the Pacific Northwest Network. The newly
                                            merged network is the largest of the 12 USEAC
 Figure 2: Pacific NW USEAC Network                 networks, consisting of 15 individual
            Seattle                                 centers, which cover Northern California,
           Tacoma   Spokane
                                                    Oregon, Washington, Idaho, Montana,
        Portland             Missoula
                                                    Alaska, and Hawaii (see figure 2). 7
                             Boise
                                                            At the time of our review, the Pacific
    North Bay
                   Sacramento                               Northwest USEAC Network was staffed by
      Oakland      San Jose                                 36 CS employees, one Ex-Im Bank
 San Francisco      Fresno                                  representative, and 2 SBA officials. In FY
      Monterey                                              2003, the network had an operating budget
                                                            of $3.8 million; counseled 3,982 firms;
                                                            added 1,817 new clients to its portfolio; and
                                                            collected $181,235 in fees from clients for
                                                            products and services.
                             Anchorage          Honolulu




        6
           The Global Trade & Technology Network (GTN) is a USAID-funded program implemented by
International Executive Service Corp. GTN promotes economic growth in developing countries through trade,
investment, and technology transfer. USAID was a participating agency in the establishment of the pilot USEACs,
but was not initially located in Chicago.
         7
           On October 1, 2003, Missoula and Boise were reassigned to the Denver USEAC, and Honolulu was
reassigned to the Southern California network, leaving the Pacific Northwest Network with 12 centers.


                                                       2

U.S. Department of Commerce                                                          Final Report IPE-16728

Office of Inspector General                                                                  September 2004


Philadelphia USEAC Network
                                                             Figure 3: Philadelphia USEAC Network
At the time of our review, the Philadelphia USEAC
Network had a staff of 26 CS employees and 2 SBA
officials, and was the hub office for five satellite offices
serving the Mid-Atlantic region (Pennsylvania, Central
and Southern New Jersey, Delaware, Maryland,                                         Philadelphia
                                                                          Harrisburg
Northern Virginia, and the District of Columbia) (see           Pittsburgh
                                                                                              Trenton
           8
figure 3).
                                                                                             Baltimore
In FY 2003, the Philadelphia network had an operating
budget of $2.7 million; counseled 2,175 businesses;                               Northern
                                                                                  Virginia
added 745 new firms to its portfolio; and collected
$166,634 in fees for products and services from its
clients.




        8
         As of October 1, 2003, the Northern Virginia USEAC no longer reported to the Philadelphia USEAC
Network, becoming part of the Charlotte USEAC Network. Also, on October 1st , the Charleston USEAC and
Wheeling USEAC, both located in West Virginia, became part of the Philadelphia network.


                                                     3

U.S. Department of Commerce                                                 Final Report IPE-16728

Office of Inspector General                                                         September 2004


                      OBJECTIVES, SCOPE, AND METHODOLOGY


In the course of conducting our individual inspections of the Chicago, Pacific Northwest, and
Philadelphia networks, we noted several issues that were common to all three. These
commonalities suggested possible systemic weaknesses and the need for organization-wide
changes. This report presents those shared observations and our recommendations for
addressing them.

The objective of our individual inspections was to assess the effectiveness of the management,
program, financial, and administrative operations of each network, including the development
and achievement of goals and compliance with applicable regulations and managerial guidance.
Specifically, we sought to determine whether each network

       � plans, organizes, and controls its work and resources effectively and efficiently;
       � meets the needs of U.S. exporters and helps increase exports and market access; and
       � has appropriate internal controls and financial management practices.

To meet our objectives, we

       � reviewed each network’s strategic work plans, which offer quantifiable performance
         measures for increasing U.S. exports, and its coordination with trade partners in
         achieving the overall goals of ITA and the Department of Commerce;
       � interviewed officials from Commercial Service and other federal agencies, as well as
         representatives from state, local, and nonprofit trade-related organizations;
       � surveyed network staff and a random sample of clients; and
       � examined export success records, client session summaries, staff performance reports,
         and other pertinent records regarding each network’s operations and performance.

We conducted onsite fieldwork at the following export assistance centers: Chicago network—
Chicago and Minneapolis; Pacific Northwest network—North Bay, Portland, San Francisco, and
San Jose; and Philadelphia network—Baltimore, Northern Virginia, Philadelphia, and Trenton.

We also met with CS headquarters officials in Washington, D.C., and discussed our observations
with USEAC network directors, ODO management, the Assistant Secretary for Trade Promotion
and Director General of the U.S. and Foreign Commercial Service, and ITA’s Chief Financial
Officer and Director of Administration. In addition, we discussed ITA’s compliance with user
fee requirements with departmental officials. We also interviewed network directors and staff
from selected USEACs that we did not visit, and officials from numerous federal, state, and local
government organizations, including officials from the Small Business Administration and the
Export-Import Bank. Across the three networks, we also contacted 227 USEAC clients via e-
mail, telephone, or onsite visit, and received responses from 156 (69 percent).




                                                4

U.S. Department of Commerce                                                           Final Report IPE-16728

Office of Inspector General                                                                   September 2004


                              OBSERVATIONS AND CONCLUSIONS


I.	     Weaknesses Identified Demonstrate That USEAC Management Oversight Needs to
        Be Improved

Through our individual inspections, we discovered several failures to comply with internal CS
policy and procedures as well as federal regulations by both the USEACs and the Office of
Domestic Operations (ODO). Most significantly, we found that failure to comply with the CS
guidelines on the reporting of export successes—the organization’s primary performance
measure—resulted in the overstatement of performance data for each network. We also noted
that, despite a CS strategic goal to expand the number of U.S. firms that export, trade specialists
are focusing much attention on repeat clients, who are experienced exporters, and may therefore
be neglecting to cultivate new-to-export clients. In addition, we discovered operational,
financial, and administrative weaknesses unique to each network, which, when coupled with the
findings common to all three, suggest that ODO needs to improve its management oversight of
the domestic field operations.

A.	     Some export successes either were not documented as required by CS guidelines or did
        not occur

Commercial Service’s key performance measure is the number of export transactions made as a
result of its assistance to U.S. firms. The accuracy of this information is crucial—Commercial
Service uses export success data to assess the performance of USEACs and trade specialists, and
thus determine whether they are meeting organizational goals and objectives. The data is also
provided to the Office of Management and Budget (OMB) and Congress to use when reviewing
Commercial Service’s performance and
                                                          CS’ Operations Manual, in effect during our
determining funding levels. For FY 2003,                  period of review, described an export success
Commercial Service reported that it facilitated           as: 

14,090 exports totaling more than $35 billion.                  �•  An actual verifiable export sale—

However, we found that FY 2003 performance data                     shipment of goods or delivery of 

for the Chicago, Pacific Northwest, and                             services.

                                                                �•  The legally binding signing of an
Philadelphia networks was overstated because of                     agreement, including
failure to fully comply with CS guidelines on the                   agent/distributor, representation,
reporting and review of export successes.                           joint venture, strategic alliance,
                                                                    licensing, and franchising or the
Problematic Reporting. In reporting their export                    signing of a contract by the client,
                                                                    with sales expected in the future.*
successes, trade specialists are to briefly describe            �•  Resolution of a trade complaint or
the client company (what it does and where it does                  dispute on behalf of the client—
business) and the chain of events that led to the                   avoiding harm or loss.
success—that is, what assistance was provided and               �•  Removal of a market access barrier,
when to make the export transaction happen,                         including standards, regulations,
                                                                    testing and certification—opening a
including any actions by other CS or ITA staff as                   market for U.S. firms.
well as trade partners. According to CS’ 

Operations Manual, there must be a direct link             * The signing of a contract and an export sale, 

                                                           related to the same contract, immediately 

between the assistance provided by the trade               thereafter (within 3 months), must be reported as
specialist and the reported outcome, and client            a single export success.




                                                   5

U.S. Department of Commerce                                                                            Final Report IPE-16728
Office of Inspector General                                                                                    September 2004

records must sufficiently document that link. The Manual also instructs trade specialists to
“[o]nly claim on the dollar value line of the report the actual amount of product/service that has
already been sold. Projected or anticipated sales, etc. are not allowed on the dollar value line of
the report as the sales have not yet been consummated.”

To verify the accuracy of FY 2003 export success records, we evaluated them against the
reporting guidelines, reviewed client session records, and contacted a random sample of clients.
(Table 1 details the export success records we reviewed as part of our three network inspections.)
We identified a number of reporting problems, in particular the reporting of estimated or
projected export sales—rather than actual, verifiable sales—duplicate export success records,
success stories that did not fit the definition of an export success, and the reporting of export
sales that did not occur. As a result of these reporting errors, we determined that the Chicago
and Philadelphia networks had overstated their total export success value by at least 10 percent
for the period reviewed, and that the Pacific Northwest network overstated its success value by at
least 59 percent.
 Table 1: Export Success Data

                                                           Chicago                Pacific NW              Philadelphia
 Period of Review                                         10/01/02 –              10/01/02 –               10/01/02 –
                                                           7/09/03                  9/30/03                 9/30/03
 Number of Export Successes 1                                273                      761                      489
 Total Export Success Value                                 $42.1M                    $263M                  $145.1M
 Export Success Values Overstated 2, 3                      $4.33M                    $156M                   $14.5M

 Percentage of Total Export Success                           10%                      59%                      10%
   Value Overstated 3
 1 We reviewed all of the Chicago USEAC Network’s export success records approved from October 1, 2002
 to July 9, 2003. For the Pacific NW and Philadelphia USEAC networks, we reviewed approximately 20% of the export
 success records approved during FY 2003.

2 Export Success Values Overstated refers to the incorrect reporting of (a) estimated and projected sales, (b) duplicate
export success records, (c) export sales that did not occur, and (d) approved records that did not meet the definition of an
export success.

 3 These figures represent the minimum amount of overstated export success claims because we reviewed only a portion of
 each USEAC network’s export success records for FY 2003.

 Source: OIG

These reporting errors were the result of (1) noncompliance with the Manual’s export success
guidelines; (2) poor management oversight by office directors, network directors, and ODO
national directors9 ; and (3) reporting of incomplete or premature export sales to meet
performance goals.

We are concerned that no one in the management chain of command identified and corrected the
reporting errors we found and therefore the performance data for the networks was faulty.

         9
           During the network inspections, there were two national directors—one for the eastern region and the
other for the western region.


                                                                6

U.S. Department of Commerce                                                    Final Report IPE-16728
Office of Inspector General                                                            September 2004

According to CS’ Manual, “Managers and staff are accountable for reporting performance
statistics consistent with this guidance. Office Directors provide quality control certifications by
completing approval fields in the CMS database. Regional Directors spot-check Export Success
reports.”

We are also concerned that, to reach performance targets, some trade specialists are prematurely
reporting export successes for sales contracts and exports that eventually do not occur. We
understand that the primary source of information on export transactions is verbal reporting from
company officials who may, at the time, be confident that a deal is occurring. However, in some
cases, for whatever reason, the deal is subsequently terminated. In such instances, we believe if
specialists learn that reported export successes did not occur, they should inform management to
have those records deleted from the database.

Other reporting problems identified. A number of the export success and client session
records we reviewed were further compromised by the following weaknesses:

       � Export success narratives did not clearly demonstrate the link between the assistance
         provided and the reported outcome;
       � Client session records in the client management system (CMS) did not sufficiently
         demonstrate the chain of events that led to an export success and were poorly
         maintained; and
       � Export success narratives were poorly written with typographical errors and incorrect
         classification information (e.g., wrong success type or erroneous dollar value of
         success or export market).

We also discovered inconsistencies in reporting the dollar value of export successes realized by a
financial institution. Some export success records reported the value of the export transaction
financed by the financial institution, however, in one record, the income realized by the financial
institution as a result of its service was reported. The export success guidelines do not address
this type of success and which dollar amount (i.e., export sales value or income) should be
reported.

Response to reporting problems from ITA and Commercial Service. ITA and Commercial
Service agreed that management oversight of export success reporting can be strengthened across
the field and in headquarters to enhance reporting quality, consistency, and compliance with CS
policy. Recognizing the importance of accurate reporting, and in response to earlier OIG reports
that cited overstated performance claims by some overseas posts, ITA and Commercial Service
have taken and plan to take a number of steps to improve performance measure data reporting.

During FY 2003, Commercial Service formed a working group to study the appropriateness and
effectiveness of its performance measures and export success guidelines. Based on the working
group’s findings and conclusions, Commercial Service issued new export success guidelines that
became effective in fiscal year 2004. The revised guidelines established “export success
credits”—a collaborative reporting system that equally credits everyone who substantially
contributes to a client’s export success. ODO told us it worked directly with the USEACs




                                                 7

U.S. Department of Commerce                                                    Final Report IPE-16728
Office of Inspector General                                                            September 2004

(through staff training conference calls and quarterly network directors’ meetings) to facilitate
implementation of the guidelines and ensure accuracy and consistent compliance with them.

We evaluated the new guidelines during our USEAC inspections to determine whether they
address the reporting errors we discovered. For the most part, we heard that the new guidelines
are clearer and provide better instruction. We understand there is now less reporting confusion
in the field and more consistent interpretation of the guidelines across the USEAC networks. We
also heard that the export success credit system has fostered collaborative interaction among
trade specialists and their overseas counterparts in helping companies realize export successes.
However, we did note some areas in which further guidance is needed. In particular, the
guidelines should provide instruction on (1) how to report export successes for financial
institutions, and (2) how soon after interacting with a client trade specialists should create client
session records to ensure adequate and timely documentation for export successes.

ITA and Commercial Service agreed with our recommendations for these additional revisions.
In its response to our network reports, Commercial Service stated it intends to form working
groups over the summer of 2004, to analyze the reporting issues and present options for the
proposed revisions, with resulting guidelines to be effective October 1, 2004. Commercial
Service is currently providing export success workshops at the USEACs to help staff better
understand the guidelines, improve the quality of export success narratives, and ensure that trade
specialists are using CMS to record client interaction consistently and in a timely manner.

Commercial Service also recently designated a senior manager as the export success quality
control officer responsible for reviewing the content and quality of export success reporting
worldwide and stated that it will correct or delete problem export success records approved
during FY 2003. In addition to these efforts, ITA’s Office of the Chief Financial Officer (CFO)
plans to conduct onsite reviews to verify and validate export success data as well as other
performance data, and thereby ensure that duplicate or overstated export successes are deleted
from the CS database and that data sources used in Department documents (e.g., Commerce’s
annual Performance and Accountability Report) are accurate. We support these corrective
actions, and will continue to follow their impact on improving the quality of export success
reporting.

Recommendation. ITA and Commercial Service should continue monitoring the
implementation and adequacy of the initiatives for improving export success reporting and
review to ensure that they have the desired impact of enhancing both the reporting process and
management oversight.



In response to our draft report, ITA agreed that accurate export success reporting is important,
and it outlined a number of steps it is taking to comply with our recommendation that it continue
monitoring the adequacy of its effo rts to improve such performance reporting. ITA noted that
Commercial Service/Office of Domestic Operations management oversight of export success
reporting by the domestic field has been enhanced. In July 2004, ITA appointed an Export
Success Quality Control Officer (GS-14) to monitor all export success reporting worldwide in



                                                  8

U.S. Department of Commerce                                                                Final Report IPE-16728

Office of Inspector General                                                                        September 2004


order to create a permanent management tool for improving the content, quality, and consistency
of export success reporting throughout the Commercial Service. ITA reported that the actions of
the new Export Success Quality Control Officer, in coordination with other CS units, resulted in
the deletion of export successes from the database that were identified as being inconsistent with
Commercial Service guidance, the correction of others to reflect more accurate information, and
the referral of 121 duplicate export successes to the appropriate USEACs for consolidation.

ITA also reported that it is developing a sampling methodology for an in-depth quality review of
export successes from Commercial Service offices worldwide. In FY 2005 and subsequent
years, ITA said that it intends to review approximately 20 percent of current export successes.
Such a review is planned in conjunction with on-site verification and validation reviews of
ITA-wide measured data, export success data, client records, as well as other performance results
source data. Initial visits will be to offices covered in OIG reports, beginning with Philadelphia
in September 2004. In addition, ITA stated that its Performance Measures Working (PM) Group
is being reconfigured to better represent the current Commercial Service structure, and an Export
Success Policy Summit will be held in the first quarter of FY 2005 to organize, clarify, and
augment the standard export success guidelines now in place.

We support ITA’s efforts to improve the quality of export success reporting and the reporting of
other performance data.

B.      Assistance to new-to-export clients should be tracked

One of Commercial Service’s strategic goals is to expand the number of U.S. firms that export.
In its annual reporting to Congress and OMB, Commercial Service reports, along with the
number of export success transactions, the transaction classifications, of which there are three—
new-to-export (NTE); new-to-market (NTM); and increase-to- market (ITM). The number of
NTEs is a crucial CS performance measure and is designed to
                                                                     An NTE success occurs when a
ensure that trade specialists reach out to as many companies as      U.S. firm makes its first sale
possible to help expand U.S. exports.                                into any foreign market. An
                                                                               NTM success occurs when a
Of the 14,090 export success transactions CS reported for FY                   U.S. firm with some existing
2003, 897 (6 percent) were NTE export successes. CS’ NTE                       level of export activity makes a
                                                                               sale in a new market, enters
goal for the fiscal year was 800—the same target as that for FY                into a legally binding
2002, despite the fact that CS’ total export success goal for FY               agreement, or introduces new
2003 increased by 10 percent. 10 Further, the three USEAC                      products or services that require
networks we inspected had minimal NTE export success                           a different channel of
records for FY 2003 compared with NTM and ITM successes                        distribution in a market to
                                                                               which it already exports. An
(see chart 1), a number of the individual centers did not report               ITM occurs when sales are
any NTEs, and some of the reported NTEs were incorrect.                        made by a U.S. firm in its
For example, 6 of the Pacific Northwest’s 68 NTE success                       existing foreign markets.
records for FY 2003 were either misclassified or did not meet                  Source: Commercial Service
CS’ definition of an NTE. Thus, the Pacific Northwest
USEAC network overstated its NTE successes for the year by

        10
           For fiscal year 2002, Commercial Service fell short of its NTE goal of 800, reporting 699 NTE
transactions, or 87 percent of its goal.


                                                        9

U.S. Department of Commerce                                                      Final Report IPE-16728

Office of Inspector General                                                              September 2004


9 percent. Because this data is provided to the Department, OMB, and Congress for their use in
reviewing CS’ overall performance and funding requests, the accuracy of this data is critical.

                Chart 1: NTE Export Success Data

                                    FY 2003 USEAC Export Success Data

                  900
                                                      761
                  800
                  700
                  600
                                                                         489
                  500              430                                                  NTE
                  400                                                                   Total
                  300
                  200
                              37                68                 38
                  100
                    0
                              Chicago          Pacific NW         Philadelphia

               Source: OIG.


Weak focus on NTEs. This data indicates that Commercial Service may be focusing more
attention on robust exporters—those that are ready, willing, and able to quickly move into
overseas markets—rather than on inexperienced firms wanting to begin exporting.

Trade specialists told us that pressure to reach short-term export success goals has created a
disincentive for spending the longer time required to counsel inexperienced exporters. They
explained that it can take up to 2 years for a company new to exporting to make a transaction.
Therefore, trade specialists may opt to spend time assisting ITM or NTM exporters, who are
more likely to export in the short-term and thus help them reach their performance goals.

We attempted to gauge—via CMS clie nt session records—how much time and effort trade
specialists dedicate to assisting NTE clients succeed as exporters. However, we were unable to
identify the NTE clients within the networks’ portfolios and track their counseling sessions,
because CMS does not categorize clients based on their exporting status.

To add a client to a USEAC’s portfolio, a trade specialist creates an organization record (or
profile) for that company within CMS. In this record, a trade specialist enters the company’s
contact information as well as more specific information such as how the client was identified
(e.g., incoming call), its industry sector, business size, revenue, and year established. The CMS
organization record however does not include a field in which the trade specialist classifies the
client’s exporting status as either new-to-export or other. As a result, we were unable to identify
the new-to-export clients within the USEACs’ portfolios—except for those that eventually
achieved an export success—and track the counseling provided to them by trade specialists.

We learned that Commercial Service is concerned about NTE client development. The Director
General recently formed a working group to develop a strategy for increasing the organization’s



                                                10

U.S. Department of Commerce                                                    Final Report IPE-16728

Office of Inspector General                                                            September 2004


client outreach with a particular focus on generating new       “30% of non-exporters are
NTE clients. Commercial Service expects the new                 interested in exporting, and cite
strategy will include better management of client leads         the lack of information about
and provide incentives for trade specialists to                 export markets, customers, and
successfully work with NTE clients. The strategy is             export procedures as areas
expected to be in place by October 1, 2004. We support          where they need help.”
the Director General’s initiative to have Commercial
                                                                  Trade Promotion Coordinating
Service focus more on NTE client development. An                Committee’s 2002 “Report Card on
organization-wide strategy should complement the export                   Trade II” study
success credit system and generate more NTE successes
as trade specialists can collaborate and get equal credit
for helping NTE clients succeed in exporting. However, we also believe that Commercial
Service should categorize its clients in order to more easily identify NTE clients and track their
counseling sessions.

Recommendation. Commercial Service should create a field within CMS in order to identify
NTE clients and be able to track NTE client counseling sessions.



In response to our draft report, ITA noted that our conclusion that the bureau was “unable to
track activity with new-to-export (NTE) clients because there is not a field that captures this
information in the Client Management System (CMS) records” was a valid criticism. ITA is
working to add this field to the CMS to address our recommendation.

ITA reported, however, that NTE export successes increased from 697 in FY 2002 to 896 in FY
2003, and it asked that this be reflected in our report. ITA also provided some details of other
programs and mechanisms it has to assist firms that are new to exporting, although it notes that
many of these efforts are less quantifiable and harder to capture than export successes. Examples
include outreach efforts to local business communities, indirect assistance at training courses
offered by local trade partners, innovative programs such as an effort to train interns on the
exporting process and place them inside firms that need additional resources in order to be
successful exporters, building a database of best practices used by some USEACs that could be
adapted by others, and match making and low cost trade missions.

Finally, ITA noted that our report provided the bureau with another opportunity to revisit the
question of “Who is our client?” by taking a broad look at activities provided to all of its clients,
including firms that have never exported, firms that have limited exporting experience, and firms
with extensive exporting experience who may need very specific help in an overseas market.
ITA agrees that it is important for the USEACs to leverage resources in their local communities,
ensuring that firms wishing to expand their international sales have access to needed resources.

We applaud ITA’s initiatives to develop a means to better track its assistance to new-to-export
firms and to support those firms by providing additional outreach to local business communities
and through activities sponsored by local trade partners. The steps taken by ITA meet the intent
of our recommendation.



                                                 11

U.S. Department of Commerce                                                      Final Report IPE-16728

Office of Inspector General                                                              September 2004




C.     Management oversight of domestic operations should be strengthened

In addition to the export success record problems discussed above, we identified the management
and compliance issues listed below at various USEACs, and made specific recommendations to
address them in our individua l USEAC reports. 11 We believe these weaknesses—along with the
more systemic issues noted above—suggest that ODO could improve its management oversight
of its field operations and provide clearer guidance and better instruction to its staff to ensure
compliance with CS policy and federal regulations.

Vacancies. Despite ITA’s priority to fill vacancies more quickly and improve accuracy of
staffing, 12 ODO was slow to fill several director positions in the Philadelphia network, which
undercut some trade partner relations and impacted office operations. In addition, personnel
problems and inadequate long-term strategic planning further impaired office operations.

User Fees. The ODO national director’s performance appraisal plan states that the director is to
ensure that revenues/collections and procedures/polices are understood and adhered to
throughout the USEAC networks. However, we discovered that a number of USEACs were not
in compliance with CS’ Operations Manual on the collection of user fees for products and
services provided. Specifically, within the Pacific Northwest network, we found that export
assistance centers did not consistently charge international buyers for their services, as required
by the Manual and OMB Circular A-25 (see Chapter II for further discussion of the Circular).
Further, it appears that the fees charged by the USEACs did not recover direct costs associated
with providing “fee- for-service” events, products, and services to their customers as stipulated in
the Manual.

Travel and Administrative Expenses. The national            Commercial Service’s Performance
director also assures that the domestic field complies      Appraisal for the ODO national director
with departmental regulations regarding travel              contains the following element:
expenses, procurement, etc., and communicates               “Demonstrates sound judgment and
regulation and guidance to the USEACs. However, we          assures that region adheres to
found a number of instances in which USEAC staff did        Departmental regulations regarding
not comply with such policies and regulations. For          travel expenses, procurement, and use of
instance, the Philadelphia network approved                 the official agency credit cards.
                                                            Communicates regulation and guidance
questionable travel vouchers and incurred and               to all the Regional USEACs.”
reimbursed a number of unnecessary expenses. ODO
management did not review the travel vouchers, question the necessity of the travel, or determine
whether the chosen mode of transportation was practicable and commensurate with the nature
and purpose of the traveler’s duties. In addition, some export assistance centers were paying for
employee parking spaces without adequate justification or ODO approval.

Financial and Administrative Field Support. In February 2001, ODO established the National
Field Support Team (NFST) to shift administrative and financial operations from trade

       11
            Chicago USEAC Network (IPE-16136), Pacific Northwest USEAC Network (IPE-16507), and
Philadelphia USEAC Network (IPE-16402).
         12
            ITA’s Strategic Plan Fiscal Years 2002-2006. p. 25.


                                                  12

U.S. Department of Commerce                                                                Final Report IPE-16728
Office of Inspector General                                                                        September 2004

specialists to field support specialists, and thereby give trade staff more time to work with
clients. (See Appendix B for more information on the NFST.) Though we determined the
networks generally have sound financial and administrative operations, we identified several
issues that indicate NFST field staff did not properly monitor their areas of responsibility.
    •	 Noncompliance with purchase card limits. In Philadelphia and the Pacific Northwest,
        NFST staff did not adhere to the Commerce Acquisition Manual’s ceiling on cell phone
        expenses that may be charged to purchase cards each year. A number of cardholders
        exceeded the $2,500 limit.
    •	 Advance cell phone payments. NFST staff did not comply with the federal prohibition
        on advance payments for goods or services. 13 During FY 2003, the Philadelphia network
        prepaid $5,800 in projected FY 2004 cell phone charges, and the Pacific Northwest
        network prepaid $10,000 in projected cell phone charges. 14
    •	 Inadequately monitored cell phone usage. NFST issues bulletins to communicate
        uniform policy directives to its team of field support specialists. Its Cellular Telephone
        Policy15 provides general principles governing cell phone usage. However, in the
        Philadelphia network, we found monthly cell phone bills with hundreds of dollars of
        roaming charges (for example, $467 in roaming charges for 3 months), several showing
        numerous calls to an employee’s residence, and others that showed an employee had
        added a second line for personal use. NFST staff are respons ible for reviewing bills for
        anomalies and submitting them for payment, and users are responsible for determining
        the validity of the calls. However, we found no evidence that users reviewed their
        statements to certify that the calls were for official government business or reimbursed
        the government for any personal calls.
    •	 Lease payments not collected. The Global Trade & Technology Network (GTN), which
        was collocated at the Chicago USEAC through FY 2003, was required, under a
        memorandum of understanding, to pay $2,910 per fiscal year toward Chicago’s lease
        costs. However, Commercial Service had not sought—and the trade partner had not
        paid—these funds for fiscal years 2001 through 2003. We also learned that GTN had
        failed to pay its share of rent for collocation at the Newport Beach and Houston USEACs.
        In response to our concerns, NFST invoiced GTN for a total of $16,088 in outstanding
        rent contributions. On November 19, 2003, Commercial Service received full payment.

Both ITA and Commercial Service agreed with our recommendations to address the issues
identified. We support the corrective actions the agencies have taken and intend to take to
improve operations and compliance. However, we are concerned that, when taken together,
these individual mana gement and compliance issues indicate that ODO headquarters oversight of
the USEACs and field support specialists was not as diligent as it should have been.

In early FY 2004, Commercial Service restructured ODO to have one national director, instead
of two, to oversee the 12 USEAC networks. While consolidating leadership may improve
consistency in applying CS policy and procedures across the networks, Commercial Service


        13
           31 USC § 3324.
        14
           Due to the timing of the onsite visit to the Chicago network, we were unable to review 2003 fiscal year
end purchases and, therefore, did not find evidence that advance payments were made.
        15
           Rents, Communication, and Utilities: Policy Bulletin 05-02-002.


                                                        13

U.S. Department of Commerce                                                 Final Report IPE-16728
Office of Inspector General                                                         September 2004

must ensure that ODO strengthens its management oversight of the networks to prevent the
problems we identified from reoccurring.

Recommendations. Commercial Service needs to ensure that ODO effectively monitors
USEAC activities and compliance with policies, procedures, and regulations, as well as NFST
support, and hold ODO accountable for providing adequate management oversight.



In its response to our draft report, ITA agreed with our recommendation, noting that additional
improvements are needed in ODO management and oversight. While stating that ODO
management has improved over the last four years, ITA reported that significant structural
improvements are currently being implemented: a new ODO headquarters reporting structure
has been established to (1) fill critical staffing gaps, (2) improve management oversight and
accountability, and (3) improve internal customer service. It expects to fill three vacancies
critical to these structural changes in October 2004.

With this additional staff in place, ITA expects the ODO National Director’s role will be
redirected to increase involvement in and oversight of the 12 USEAC field networks, while ODO
headquarters day-to-day operational requirements will be managed by a supervisory GS-14.
Finally, the National Field Support Team plans to again have a full-time perma nent Director.
ITA also reported that core day-to-day administrative and programmatic functions of ODO
headquarters will be reexamined and assigned to individually accountable ODO HQ staff. In
addition, ODO headquarters staff will be subject to a 360-degree evaluation to be included in
each individual’s performance plan.

Implementation of ITA’s stated plans to more effectively monitor USEAC activities and
compliance with policies, procedures, and regulations, should result in strengthened ODO
management and oversight. The steps taken by ITA meet the intent of our recommendation. We
look forward to continuing updates on the progress realized in this area.




                                               14

U.S. Department of Commerce                                                               Final Report IPE-16728
Office of Inspector General                                                                       September 2004

II.     ITA Is Not in Compliance with OMB Circular A-25 Requirements

Federal law provides that each service or thing of value provided by an agency to a person is to
be self-sustaining to the extent possible. 16 OMB Circular A-25 establishes federal policy
regarding fees for U.S. government services and for sale or use of federal goods or resources—
including those of ITA—that convey special benefits to recipients beyond those accruing to the
general public. The stated objective of this policy is to have agencies recover their full costs of
providing such benefits.

Although ITA, through its various units, currently           A-25 states that “full-cost” includes all direct
charges fees for some products and services, we              and indirect costs to any part of the federal
determined that it is not in compliance with Circular        government of providing a good, resource, or
A-25’s full-cost recovery requirements. Specifically,        service. These costs include, but are not
                                                             limited to: (1) direct and indirect personnel
we found that CS’ Operations Manual instructed
                                                             costs (e.g., salaries and fringe benefits such as
trade specialists to recover just some of the direct         medical insurance and retirement); (2)
costs—and not all direct and indirect costs—for              physical overhead and other indirect costs
events, products, and services fulfilled at their            (e.g., materials and travel costs) of the
locations. Within the Pacific Northwest network, we          products and services; and (3) management
                                                             and supervisory costs.
also found that the centers did not consistently charge
international buyers for their products and services, e.g., the Gold Key USA. 17

Our findings are supported by a 2003 study of ITA user fees, 18 which indicated that the agency is
recovering just marginal costs (excluding labor and overhead) and that, while ITA charges fees
for some products and services, it does not have a consistently applied pricing (or marketing)
strategy for its offerings.

ITA bases its fees on only some portion of direct costs associated with providing fee-for-service
products. Complicating efforts to comply with the OMB circular is a mind-set within ITA
against charging fees for government services intended to help small and medium-sized firms
expand their export business. A number of CS officials fear that if prices are increased, U.S.
firms may decide not to use CS products and services, which then may negatively impact the
number of export successes achieved by the agency.

Efforts to comply. As a follow-up to the 2003 user fee study, ITA formed a Product
Management Board to direct the agency’s marketing and pricing efforts. The board, chaired by
ITA’s deputy chief financial officer, consists of two working groups—one to address pricing,
and the other to address policy.

The Policy Working Group is charged with (1) reviewing (and improving, as needed) the
accuracy and clarity of ITA’s product descriptions, (2) assessing ITA’s product portfolio to
        16
           31 USC § 9701.
        17
           Gold Key USA facilitates U.S. exports by providing a fee-based matchmaking program for international
customers of U.S. products and services. It is tailored to international buyers traveling to the U.S. and includes
customized appointment scheduling and counseling services, providing international buyers with one-on-one
meetings with pre-screened export-ready U.S. companies.
        18
           The study –Department of Commerce International Trade Administration User Fee Study, KPMG LLP,
January 24, 2003—was conducted under contract to ITA.


                                                        15

U.S. Department of Commerce                                                              Final Report IPE-16728
Office of Inspector General                                                                      September 2004

determine whether any products might be privatized or discontinued, and (3) establishing policy
for implementing full-cost recovery models (being developed by the pric ing work group) for
products and services.

The Pricing Working Group is developing pricing templates for every ITA product and service.
ITA reports that two draft templates have been created thus far to capture all direct and indirect
costs for two of Commercial Service’s key products—the International Company Profile and
International Partner Search. 19 The templates attempt to differentiate the time and salary costs of
staff involved in producing these products (commercial officers, local staff, and headquarters
staff), and calculate general overhead and direct costs. 20 ITA hopes to begin deploying the new
pricing methodology in FY 2005 and thus begin recovery of full costs. Toward this end, the
agency has hired a contractor to determine its requirements for a new cost accounting system,
with the goal of developing the new system in FY 2005 as well.

It should be noted that in January 2004, ITA requested that OMB waive the full-cost recovery
requirement for its trade promotion activities. 21 In its May 12, 2004 response to that request,
OMB denied the request, stating that as a matter of sound financial management, it is critical for
ITA to document the full cost of its services. The letter, however, noted that, “(a)fter ITA has in
place a full- cost accounting system and can quantify the full costs of its services, OMB would be
happy to review another such request if ITA determines that a waiver is still necessary;” and that
“(f)or FY 2004, we believe ITA will be acceptably in compliance with Circular A-25 if it
develops a sound plan to reach the $13 million fee target, takes appropriate steps toward
developing a full-cost accounting system during FY 2005, and improves training to promote
uniformity and acceptance of pricing of products and services that benefit specific businesses.”
[Emphasis added.]

Recommendations. ITA needs to work with the Department and OMB to ensure compliance
with OMB Circular A-25, User Charges. Commercial Service needs to revise its manual to
comply with OMB requirements for full-cost recovery, and provide staff with guidelines and
training on calculating and collecting appropriate fees.



In response to our draft report, ITA’s CFO and Director of Administration stated that ITA is
taking steps to comply with OMB Circular A-25, and she attached a detailed plan of action to
achieve such compliance (see Appendix C, page 38). According to the CFO, OMB outlined four
actions required of ITA to bring it into compliance with Circular A-25. First, OMB requires that
ITA charge the full cost of providing services. In response, ITA stated that it has developed
product-pricing templates and will acquire a new cost accounting system to help it capture the
full direct and indirect costs for its products. Secondly, in response to OMB’s requirement that
        19
            The International Company Profile provides background information on a prospective agent,
distributor, or partner with whom a U.S. firm is considering doing business. The International Partner Search
matches requestors with potential partners to a market product or service in a given area.
         20
            According to ITA, data was gathered from several worldwide posts with varying labor markets and
export potential to form the basis and methodology for the templates. The template designs are currently being
reviewed by a private contractor hired by Commercial Service.
         21
            Although ITA requested a similar waiver in January 2002, it received no formal response from OMB.


                                                       16

U.S. Department of Commerce                                                  Final Report IPE-16728
Office of Inspector General                                                          September 2004

ITA increase the price of services where it has upward pricing flexibility, the CFO stated that
ITA is prepared to charge sufficient fees to obtain full cost recovery. Further, the CFO indicated
virtually all product prices will increase based on ITA’s methodology of including salary costs
and overhead charges that were previously excluded from product pricing computations. The
CFO added that if product demand continues at FY 2004 levels, ITA expects fee collections to
increase significantly. Third, in response to OMB’s requirement that ITA train personnel to
ensure a standard pricing strategy, the CFO responded that training has already begun, and will
continue through FY 2005 and beyond, in conjunction with national, regional, and international
staff meetings (e.g., network director quarterly meetings and senior commercial officer
conferences). Lastly, to address ITA’s internal resistance to charging fees, the CFO stated that
ITA has increased communication regarding the importance of fee collections—handbooks and
operations manuals are being been updated to reflect the new policy. In addition, the CFO stated
that the Assistant Secretary for Trade Promotion and Director General has issued material on this
subject.

ITA’s CFO also stated that she has met frequently with Trade Promotion leadership in
Washington and with the 12 USEAC network directors, and has received positive feedback from
them, and will continue to reinforce the importance of charging the full cost for products and
services.

We are pleased that ITA is taking steps to comply with OMB Circular A-25. We will continue
to monitor ITA’s progress and request that ITA provide us with updates on the implementation
of its A-25 Compliance Plan.




                                                17

U.S. Department of Commerce                                                   Final Report IPE-16728

Office of Inspector General                                                           September 2004


III.   Clients Value the USEACs and Offer Suggestions to Enhance Services

In conducting our inspections, we obtained feedback from clients who had recent interactions
with the USEACs to assess their satisfaction with the centers’ export assistance, verify the details
of their companies’ export successes, and seek suggestions on how the USEACs could improve
their services. Across the three networks, we contacted 227 clients via e- mail, telephone, or
onsite visit, and received responses from 156 (69 percent). Overall, respondents expressed
satisfaction with the assistance they received, and a number of them offered ideas on how the
USEACs could enhance their visibility and services.

A.     Clients are pleased with USEAC trade assistance

The level of service and products provided by the USEACs met or exceeded the expectations of
most clients surveyed. The majority of respondents described USEAC staff as responsive,
conscientious, innovative, knowledgeable of overseas markets, and well connected to trade
partners as well as government contacts abroad. They were also satisfied with the quality and
timeliness of CS products and services.

Many clients shared experiences of how USEAC trade specialists had assisted them in
noteworthy ways. For example, one explained that after a year of trying unsuccessfully on his
own to transact a deal with the United Nations (UN), a
Trenton trade specialist helped him make the right contacts
and 6 months later he closed a contract with the UN.                “I consider [the trade
Another client was impressed by the dedication of a trade          specialist] as part of my
specialist, who drove hours to the company’s location to                 company.”
provide one-on-one counseling. The client added that the
trade specialist offered good ideas, which made the export          Monterey Bay USEAC
transaction a success, and brought an Ex-Im Bank official                    client
who provided useful trade financing information. Also, the
San Francisco USEAC put its videoconferencing equipment
to good use by helping an architectural firm, unable to
travel to Jakarta, compete in an international design competition.

A number of clients consider their USEAC trade specialist an extension of their staff, noting that
specialists and center directors often make presentations on overseas market opportunities and
notify them of market developments, trade leads, and upcoming trade events. One client told us
how a former Philadelphia network director participated on the company’s education committee
and was instrumental in helping the company identify potential overseas markets. Another client
was pleased when she received a call from a trade specialist with news that a Russian firm
wanted to distribute the company’s products. Several clients told us that trade specialists keep
them informed of market developments, issues affecting exports, trade leads, and upcoming trade
events primarily through e- mails, though a number of USEACs also distribute newsletters.

Client satisfaction is inextricably connected to USEAC and trade specialist performance.
Recognizing this, Commercial Service, under its FY 2004 performance measure initiative, has
made customer satisfaction a specific performance measure. Commercial Service is also



                                                18

U.S. Department of Commerce                                                  Final Report IPE-16728
Office of Inspector General                                                          September 2004

tracking customer service delivery and satisfaction trends through quality assurance surveys. At
present, the surveys measure satisfaction with core CS products and services, but Commercial
Service intends to expand the surveys to include client evaluation of counseling sessions. We
support such actions to enable the organization to measure the quality of assistance its trade
specialists provide to clients, especially since muc h of the work they do may not immediately
lead to export successes.

B.     Clients offer suggestions for improving USEAC services

Respondents from all three networks offered ideas on how the USEACs could enhance their
services—highlighting the need for the USEACs to better promote themselves and expressing
interest in obtaining more specialized export assistance and market information from the centers.

Though most respondents had known about the USEACs prior to seeking their assistance,
several believe the USEACs and their services could be more aggressively promoted. Some
clients suggested that the USEACs place ads in industry association newsletters, send out flyers,
and run radio advertisements during commuter rush hours.

Lack of awareness of the USEACs by some companies may have been the result of weak
organizational marketing. As a trade specialist explained—the organization has a crisis with its
name/brand recognition as it is known by several different titles, e.g., International Trade
Administration, U.S. and Foreign Commercial Service, USFCS, U.S. Commercial Service, and
USEAC, to name a few variations. We learned that Commercial Service is aware of this issue
and is taking the following actions to strengthen its brand, improve USEAC visibility, and
increase awareness of CS products and services:

       � Hiring a full-time marketing director. The newly hired director’s responsibilities are
         to (1) reach out to local newspapers to write articles about USEACs or articles that
         quote USEAC staff on trade topics, and (2) develop “client testimonials,” which
         highlight export successes that resulted from CS assistance. These testimonials are to
         be used at trade events.

       � Conducting joint mailing campaigns. With the assistance of Census, Commercial
         Service and the Ex-Im Bank sent out a promotional mailing to approximately 30,000
         exporting firms in early 2004.

       � Developing partnerships with private sector firms to promote U.S. exports and
         improve the U.S. competitive advantage through global e-commerce. In May 2004,
         Commercial Service announced a partnership contract with FedEx to market CS
         programs and services via such activities as the placement of the CS logo and text on
         FedEx web pages; joint development of marketing and direct mail materials; and
         cosponsorship of export education seminars, conferences, and other outreach events.

       � Leveraging resources of trade partners. Commercial Service is also building on
         existing trade partner relationships. For example, it has an arrangement with the
         National Association of Manufacturers’ trade call center to refer companies interested



                                               19

U.S. Department of Commerce                                                                  Final Report IPE-16728
Office of Inspector General                                                                          September 2004

              in exporting to the Trade Information Center. 22 Commercial Service has also worked
              with the U.S. Postal Service to include the CS logo and text in their international
              marketing guide.

A number of clients also expressed interest in the USEACs providing more specific information
on market opportunities (e.g., selling to China), trade leads for small manufacturers, and
specialized assistance with export documentation/regulations (e.g., export licensing) and foreign
market regulations (e.g., European CE Mark). To better address client needs, we learned that
Commercial Service is taking a number of noteworthy actions. First, through a review of FY
2003 “Highlights”23 from the three networks, we found that the USEACs are sponsoring and
participating in specialized trade seminars (e.g., free trade agreement seminars), events, and
videoconferences to promote overseas market opportunities and educate clients on trade
regulations (e.g., NAFTA rules of origin).

Second, to improve information sharing throughout the agency, Commercial Service created the
“DOC Insider,” a Web-based “knowledge network” that connects trade specialists with their
colleagues in all the USEACs and overseas posts. Via DOC Insider, specialists can share their
expertise and ask questions of one another in an effort to better assist their clients, and all
exchanges are saved to a database for future reference. We believe this system is a useful
support for trade specialists, but caution that when seeking answers to technical dual-use export
control questions, such as commodity classifications—USEAC staff should consult with export
control specialists in the Bureau of Industry & Security (BIS), rather than their peers on the DOC
Insider. As of this writing, the DOC Insider did not notify trade specialists of BIS’ dedicated
telephone line available to those who have dual- use export control questions.

Third, to enhance staff knowledge of all federal trade assistance programs and improve client
counseling, Commercial Service encourages trade specialists to attend an interagency training
program developed by the Trade Promotion Coordinating Committee (TPCC). 24 The course
provides client management skills training, broader knowledge of the programs and resources
available to assist U.S. firms in the international marketplace, and facilitates collaboration and
problem solving for clients across the TPCC agencies. 25 One trade specialist remarked that the
training enables USEACs to more effectively counsel clients on the range of federal trade
programs and identify which one can best benefit a particular company.


         22
             The Trade Information Center (TIC), located within ITA, assists U.S. companies interested in developing
their export potential. The TIC provides export counseling and information about all federally sponsored export
assistance programs and refers companies to their local USEAC for additional assistance.
          23
             Highlights are summaries of non-quantifiable activities (e.g., a trade specialist participating in a local
radio station’s business information program) that characterize outreach efforts and noteworthy events that are not
captured in export success records.
          24
             TPCC is an interagency group chaired by the Secretary of Commerce. The Export Enhancement Act of
1992 established the TPCC to provide a unifying framework for coordinating the export promotion and export
financing activities of the U.S. government and develop a government-wide strategic plan for carrying out such
programs.
          25
             The key TPCC agencies are: the Departments of Agriculture, Commerce, Energy, Labor, State,
Transportation, and Treasury; the Agency for International Development; Environmental Protection Agency; Ex-Im
Bank; Overseas Private Investment Corporation; SBA; Trade and Development Agency; and the U.S. Trade
Representative.


                                                          20

U.S. Department of Commerce                                                       Final Report IPE-16728
Office of Inspector General                                                               September 2004

IV.     USEACs Have Positive, Mutually Beneficial Relationships with Trade Partners

Overall, across all three networks, we found that the USEACs have strong, mutually beneficial
relationships with a diverse mix of trade partners at the federal, state, and local levels. In many
USEACs, Commercial Service is collocated with one or more trade partners, such as SBA,
Ex-Im Bank, BIS, state trade agencies, and universities. These collaborative relationships enable
the USEACs to provide U.S. companies with “one-stop shopping” for their export counseling,
market research, and trade financing needs. Commercial Service, however, is concerned that
SBA may vacate the USEACs.

USEACs have developed strong relations with federal and nonfederal partners

Cooperative relationships occur when USEACs work with a range of trade-related organizations
to provide customers with “the best the government has to offer,” and thus facilitate the smooth
delivery of export assistance. Our interviews with federal, state, local, and nonprofit trade
partners as well as with members of District Export Councils revealed that most partners are
pleased with their relationships with Commercial Service, the USEACs’ commitment to the trade
community, and the collaborative attitude of USEAC staff.
Across all three networks, USEAC staff were characterized        District Export Councils (DECs) consist
                                                                 of local leaders who have international
as innovative, readily available to assist their trade           business expertise, which they share
partners, and eager to pursue joint counseling,                  with USEAC clients, and thus
cosponsoring of trade events/seminars, and client referrals.     complement the assistance provided by
                                                                   CS trade specialists. There are 56 DECs
The importance of cultivating strong trade partner                 throughout the country. Council
                                                                   members are appointed by the Secretary
relationships is demonstrated within each USEAC’s annual           of Commerce.
strategic plan. Each center’s plan identifies activities to
solidify trade promotion partnerships, such as joint client
calls, marketing, seminars, trade shows, and videoconferences. Also, USEAC staff performance
appraisals contain a required element that measures “collaboration” with federal and nonfederal
partners, and is assessed by the number of collaborative counseling sessions conducted.

The active relationships USEACs have with their trade partners are also demonstrated in
“Highlights”—reports which summarize non-quantifiable trade activities, accomplishments, and
outreach of USEAC staff, which do not result in specific export successes. We reviewed all
“approved” Highlight reports for the Chicago, Pacific Northwest, and Philadelphia networks for
FY 2003. Many of the trade activities reported involved several of the USEAC trade partners
(see table 2).




                                                  21

U.S. Department of Commerce                                                               Final Report IPE-16728

Office of Inspector General                                                                       September 2004


   Table 2: Highlight Reports FY 2003
                                Number of                Number of events involving           Percentage
                              approved reports              a trade partner(s)*
              Chicago               125                              81                           65%
     Pacific Northwest              146                             100                           68%
          Philadelphia               41                              25                           61%
   *These Highlight events were categorized as “client/partner outreach,” “partners,” “ new partnerships,”
   and/or “District Export Council.” If a Highlight was categorized under more than one of these
   classifications, it was counted only once.
    Note: The actual number of events which involved a trade partner(s) may be higher as some events
   categorized under other titles (e.g. trade education event, domestic trade event, or video conference) may
   have involved a USEAC trade partner(s).
   Source: OIG

We noted that the Administration’s 2002 National Export Strategy (NES) called on federal trade
promotion agencies to respond to businesses’ need for better coordinated services. The strategy
also recognized the importance of federal agencies working closely with state and local trade
partners to reduce duplication of effort and leverage scarce resources in order to provide the
services U.S. exporters need. Our inspection findings demonstrate that the Chicago, Pacific
Northwest, and Philadelphia USEAC networks are cultivating collaborative relationships with
numerous and diverse trade partners and as such are taking a holistic approach to providing trade
assistance.


                                 Examples of Trade Partner Collaboration

     � A March 2004 BIS Export Control Seminar brought together the Mid-Atlantic DEC,
          Philadelphia and Trenton USEACs, Temple Small Business Development Center (SBDC) and
          BIS to sponsor, organize, and recruit for the event. There were more than 100 attendees.

     � The Chicago USEAC, Naperville Chamber of Commerce, and local congressional staff
          organized and promoted USTR Ambassador Zoellick’s September 2003 speaking engagement
          on international trade. More than 140 attended.

     � The Pacific Northwest Network, CS Netherlands, State Department, and Dutch Ministry of
          Economic Affairs developed “High Tech Connections 2004” to promote exchanges and
          matchmaking among high-tech firms. The event featured such industry leaders as Cisco and
          Hewlett Packard as well as U.S. and Dutch government officials (e.g., Under Secretary of
          Commerce for Technology). More than 350 companies participated.

     � In March 2003, the Libertyville USEAC, Northbrook Chamber of Commerce, and the Illinois
       DEC sponsored a trade workshop on cargo security for shippers in response to a new
       Transportation Security Administration initiative. Twenty-three exporting firms attended.




                                                        22

U.S. Department of Commerce                                                                Final Report IPE-16728
Office of Inspector General                                                                        September 2004

As such, Commercial Service continues to pur sue its long-standing policy of collocating export
assistance centers with as many trade partners as is appropriate. Table 3 shows the collocations
in the networks we inspected.

 Table 3: USEAC Networks & Collocated Partners – FY 2003

              Trade Partner                       Chicago                Pacific NW               Philadelphia

 Ex-Im                                       Chicago               San Francisco,
                                                                   Seattle (1)
 SBA                                         Chicago,              Portland, Seattle           Philadelphia,
                                             Minneapolis                                       Baltimore
 SBDC                                        Peoria
 BIS                                                               San Jose
 EDA                                                               Portland

 Census                                                                                        Pittsburgh
 State/Local Government                                            Boise, Tacoma               Trenton
 Chamber of Commerce                         Rockford              Tacoma
 Association                                 Chicago (2)           Anchorage, Missoula,
 (trade, nonprofit & world trade centers)                          Oakland, Sacramento,
                                                                   San Francisco,
                                                                   Spokane
 Economic Development Group                  Libertyville
 College/University                                                Fresno                      Trenton
 (1) Ex-Im City/State Partner
 (2) During FY 2004, Global Trade & Technology Network vacated the Chicago USEAC.
 Source: OIG

Trade specialists and directors reported that collocation enhances collaboration, joint counseling,
and knowledge of partner programs, and cross-program referrals. From a practical standpoint,
these arrangements also reduce lease expenses for Commercial Service. 26 As indicated, Ex-Im
Bank and SBA are the USEACs’ primary federal trade partners. As of April 2004, Ex-Im Bank
had representatives in 6 export assistance centers 27 and SBA had a presence in 16 centers. 28




         26
             For example, in FY 2003, the Trenton USEAC was reconfigured to collocate with three different trade
partners: the office director is collocated with the New Jersey Commerce and Economic Growth Commission
(Office of International Trade) in Trenton; one trade specialist is collocated at the Monmouth University School of
Business Administration (West Long Branch, NJ) and the other trade specialist is located at Burlington County
College, High Technology Small Business Incubator (Mount Laurel, NJ). By collocating the Trenton USEAC staff
to free, shared office space with three of its trade partners, the Philadelphia network saved $59,536 in rent in FY
2003.
          27
             Chicago, Miami, New York, Newport Beach, San Diego, and San Francisco.
          28
             Atlanta, Baltimore, Boston, Charlotte, Chicago, Cleveland, Denver, Detroit, Miami, Minneapolis,
Newport Beach, North Texas, Philadelphia, Portland (OR), Seattle, and St. Louis.


                                                        23

U.S. Department of Commerce                                                                  Final Report IPE-16728
Office of Inspector General                                                                          September 2004

Other Commerce agencies sometimes collocate with the USEACs as well. For example, the
Economic Development Administration (EDA) has a representative in the Pacific Northwest’s
Portland center. EDA’s involvement with local development projects in the region enables the
representative to refer companies to the Portland and Northern California USEACs for export
assistance. The EDA representative also supports CS’ Rural Export Initiative, which enhances
the centers’ outreach to rural and Native American communities through seminars and onsite
visits.

Also, BIS’ Office of Export Administration has two representatives in the San Jose USEAC to
help trade specialists answer client questions about export licenses and regulations. This
collocation is especially valuable, as companies in Silicon Valley’s high-technology business
corridor often have questions concerning the Export Administration Regulations. BIS, in turn,
refers clients seeking export promotion services to the USEACs.

The concept of an export assistance center that integrates international marketing and trade
finance assistance for exporters originated with recommendations made by the TPCC in its 1993
report, 29 the 1992 Export Enhancement Act, 30 and the Small Business Act. 31 As such, Commerce,
SBA, Ex-Im Bank, and the U.S. Agency for International Development consolidated their federal
export promotion and finance resources to provide seamless delivery of these services in local
business communities. SBA has been Commercial Service’s primary USEAC trade partner and
currently has a presence in 16 of the 106 centers. Most of these SBA representatives service
several centers within a network, in addition to their assigned location.

Many CS officials told us that SBA is a highly valued trade partner with whom they regularly
conduct joint outreach and educational seminars, and share export success credit. One trade
specialist described SBA as “an in-house resource readily available for client counseling, cross-
referral, and education on export finance and SBA programs.” For FY 2003, CS data attributes
145 export success records as joint CS/SBA successes, which had a total export value of
approximately $81 million. 32 The actual number of export successes SBA supported may be
higher since it is possible that a trade specialist did not credit SBA for an export success
transaction(s) for which it provided assistance. According to Commercial Service, within FY
2003 export success data, there were 268 instances where trade specialists cited SBA
involvement with an export success, but did not attribute the success as a joint CS/SBA success.

At the time of this report, SBA’s FY 2005 support for the export assistance centers was not
decided. SBA may relocate its trade finance officers to its regional or district offices. Both CS
and SBA officials told us that SBA’s exit from the USEACs might adversely impact (1) the level
of coordination and collaboration among CS, SBA, and Ex-Im; (2) delivery of integrated export




         29
           “Toward a National Export Strategy, U.S. Exports = U.S. Jobs, Report to the United States Congress,”
September 30, 1993.
        30
           Title II (15 USC Sec. 4721(b)(8) and (9)).
        31
           Section 22 of the Small Business Act (15 USC Sec. 649).
        32
           OIG has not verified the validity of these export successes or whether the reporting of the successes is in
compliance with CS’ Operations Manual.


                                                         24

U.S. Department of Commerce                                                           Final Report IPE-16728

Office of Inspector General                                                                   September 2004


assistance services; (3) companies’ access to SBA’s export working capital and financing
programs; and (4) CS’ lease costs. 33

A key component of the one-stop export assistance concept is to make certain that U.S. exporters
                                      have readily available CS’ trade promotion assistance
                                      and trade finance expertise. CS’ USEAC personnel are
     As exporting becomes a more      not specialized trade finance counselors nor do they
       important part of a firm’s     have lending authority. Information about and access to
   operations, the weakness of U.S.   trade financing— such as that provided by SBA— are
   export finance systems becomes a   significant interests for U.S. exporters. In its 2002
            greater problem.	         “Report Card on Trade II” study, the TPCC found export
                                      finance to be a troublesome area for companies and
        Report Card on Trade II
                                      concluded that the government should do more to
                                      strengthen its support in this critical area.

CS officials told us that they are exploring how the USEACs can continue to offer trade finance
expertise to their clients in the event that SBA personnel are withdrawn from the USEACs.

Recommendations. Commercial Service should (1) draft contingency lease plans should SBA
exit the USEACs, and (2) develop a plan to ensure that the USEACs can continue to provide
clients with trade finance assistance should SBA exit the USEACs.



In response to our draft report, ITA noted that SBA has committed to fully fund the current level
of collocation in the USEACs in FY 2004 and FY 2005. Therefore, contingency lease plans will
not be necessary prior to FY 2006. ITA said that it will continue to monitor the situation and
develop contingency lease plans at the appropriate time, should there be an indication that SBA
might leave the USEACs.

ITA also agreed with our recommendation to develop a plan to ensure that the USEACs are able
to continue trade finance assistance. ITA stated that it recognizes the need to increase trade
specialists’ knowledge of federal trade finance programs and that its training programs include
segments on this subject. While the Commercial Service said that it continues to advocate the
necessity of SBA and Ex-Im collocation in the USEACs, this training should provide additional
knowledge to trade specialists, allowing them to continue providing clients with trade finance
assistance should SBA exit the USEACs. In addition, ITA reported that ODO has added an
export finance specialist position to the “specialist” program to allow top performing trade
specialists to cultivate knowledge and resources for all staff, answering questions and providing
referrals for the entire organization through the DOC Insider, its knowledge management tool.

The steps taken by ITA meet the intent of our recommendation.



        33
           For FY 2004, SBA’s lease payment for shared USEAC office space is $265,142. To keep lease costs
from increasing, Commercial Service would have to find a new partner to collocate or reduce office space.


                                                     25

U.S. Department of Commerce                                                  Final Report IPE-16728

Office of Inspector General                                                          September 2004


                              SUMMARY OF RECOMMENDATIONS


To strengthen the management and operations of the U.S. Export Assistance Centers, we
recommend that ITA and Commercial Service take the following actions:

Export Successes

       1.	     Continue monitoring the implementation and adequacy of the initiatives for
               improving export success reporting and review to ensure that they have the
               desired impact of enhancing both the reporting process and management oversight
               (page 5).

NTE Companies

       2.	     Create a field within the Client Management System (CMS) in order to identify
               new-to-export (NTE) clients and be able to track NTE client counseling sessions
               (page 9).

Management Oversight of Domestic Operations

       3. 	    Ensure that the Office of Domestic Operations (ODO) effectively monitors
               USEAC activities and compliance with policies, procedures, and regulations, as
               well as NFST support, and hold ODO accountable for providing adequate
               management oversight (page 12).

User Fees

       4.	     Work with the Department and OMB to ensure compliance with OMB Circular
               A-25, User Charges (page 15).

       5.	     Revise the CS Operations Manual to comply with OMB requirements for full-
               cost recovery, and provide staff with guidelines and training on calculating and
               collecting appropriate fees (page 15).

USEAC Lease Costs

       6.	     Draft contingency lease plans should the Small Business Administration (SBA)
               exit the USEACs (page 21).

Trade Finance Expertise

       7. 	    Develop a plan to ensure that the USEACs can continue to provide clients with
               trade finance assistance should SBA exit the USEACs (page 21).




                                               26

U.S. Department of Commerce                                        Final Report IPE-16728
Office of Inspector General                                                September 2004

                                                                   APPENDIX A

                                      List of Acronyms


BIS                    Bureau of Industry & Security
CFO                    Chief Financial Officer
CMS                    Client Management System
CS                     Commercial Service
DEC                    District Export Council
DOC                    Department of Commerce
EDA                    Economic Development Administration
Ex-Im Bank             Export-Import Bank of the United States
FSS                    Field Support Specialist
FY                     Fiscal Year
GTN                    Global Trade & Technology Network
ITA                    International Trade Administration
ITM                    Increase-to-Market
NES                    National Export Strategy
NFST                   National Field Support Team
NTE                    New-to-Export
NTM                    New-to-Market
ODO                    Office of Domestic Operations
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
SBA                    Small Business Administration
SBDC                   Small Business Development Center
TIC                    Trade Information Center
TPCC                   Trade Promotion Coordinating Committee
UN                     United Nations
USAID                  U.S. Agency for International Development
USC                    United States Code
USEAC                  U.S. Export Assistance Center
USTR                   United States Trade Representative




                                              27

U.S. Department of Commerce                                                  Final Report IPE-16728

Office of Inspector General                                                          September 2004


                                                                           APPENDIX B

                                 National Field Support Team

ODO established the National Field Support Team (NFST) in February 2001, to shift
administrative and financial operations away from trade specialists, to allow them to devote more
time to client and core- mission work. One NFST Field Support Specialist (FSS) is assigned to
each USEAC network to serve as the primary contact for administrative processing for all
employees within the network. NFST prepares an administrative support agreement to be signed
by each network director, the FSS within the network, and the NFST director. This agreement
spells out FSS responsibilities, including

        � budget formulation and budget allocation (in concert with the USEAC network
          director);
        � budget reporting and reconciliation;
        � human resources functions;
        � hospitality requests;
        � gifts and bequests;
        � management of procurement, travel, time and attendance, awards, trust funds, and
          inventory; and liaison for leases and Memoranda of Understanding (MOU).

The objectives of implementing such NFST agreements are to enable ODO to

       �   place more resources into export promotion;

       �   establish administrative consistency across the country;

       �   improve budget formulation, allocation, and management;

       �   improve administrative customer service and accountability;

       �   establish a proactive stance to continually improve administrative services; and

       �   improve the morale of administrative staff.


NFST also conducts periodic internal control reviews of its field operations, carried out by NFST
staff not affiliated with the network under review. A USEAC network director can, at any time,
request such a review to cover some or all network administrative functions and /or the NFST
within the network.




                                               28

U.S. Department of Commerce                                     Final Report IPE-16728

Office of Inspector General                                             September 2004




                                                               APPENDIX C

                         Agency Response to the Draft Report




                                         29

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              30

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              31

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              32

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              33

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              35

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              36

U.S. Department of Commerce         Final Report IPE-16728

Office of Inspector General                 September 2004





                              37

                                  Legislative Authority

The Office of Inspector General conducted this program evaluation in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency, and under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

Program evaluations are reviews the OIG undertakes to achieve one or more of the
following purposes:
     •	 Provide agency managers with timely information about operations. A primary
        goal of a program evaluation is to encourage effective, economical, and efficient
        operations.
     •	 Identify or prevent fraud, waste, and abuse in federal programs. By asking
        questions, identifying problems, and suggesting solutions, the OIG helps
        managers determine how best to quickly address issues identified during the
        review.
     •	 Highlight effective programs or operations, particularly if their success may be
        useful or adaptable for agency managers or program operations elsewhere.

Major contributors to this report were Kristen Johnson, Stephen Moore, Jennifer Nobles,
and Deborah Holmes, Office of Inspections and Program Evaluations.
U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General

         Room 7898C, HCHB

14th Street & Constitution Avenue, NW

        Washington, DC 20230


          Internet Web site:


          www.oig.doc.gov

